Supreme Court, U.S.
FILED

WAIVER

MAY 2 7 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No
MARK THOMPSON

194263
v. BOARD OF EDUCATION CITY OF CHICAGO, et al
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

la There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

JANE DOE'S MOTHER

0 I am a member of the Bar of the Supreme Court of the United States.

r2

I am not presently a member o
will be filed b
,mb

Bar of this Court. Should a response be requested, the response

Signature
Date:

2.7,

(Type or print) Name__ jkliri L Skawski
a Mr. 0 Ms. 0 Mrs. 0 Miss
Firm • Skawslci Law Offices, LLC
Address 1220 Kensington Road, Suite 222
City & State Oak Brook, Illlinois
Phone 630-472-9500

Zip 60523
Email iiS@SkawLaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
RECEIVED

RE: 1- 2020
CC: Mark Thompson/P.O. Box 8878/Champaign, IL 61821
Christopher A. Garcia/Garcia Law Group/20 Danada Square Rd./Ste221/Wheaton, IL 601 7OFFICE OF THE CLERI
Thomas E. Doyle/Bd of Education City of Chicago/1 N. Dearborn St./Ste 900/Chicago, IL ISIZl
'EME COURT, U.S
Joseph E. Comer/Barker, Castro, Kuban & Steinback, LLC/303 W. Madison St./Ste 700/Chicago, IL 60603
Joseph A. Bosco/LaRose & Bosco, Ltd./200 N. LaSalle St./Ste 2810/Chicago, IL 60601

